DOE/IG-0451




          AUDIT
         REPORT


                                  WASTE INCINERATION
                                         AT THE
                                 OAK RIDGE RESERVATION




                                           AUGUST 1999




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                                  August 13, 1999


MEMORANDUM FOR THE SECRETARY

FROM:           Gregory H. Friedman (Signed)
                Inspector General

SUBJECT:        INFORMATION: Audit Report on "Waste Incineration at the Oak Ridge
                Reservation"

BACKGROUND

The Toxic Substances Control Act (TSCA) Incinerator is located at the East Tennessee Technology Park (ETTP)
in Oak Ridge, Tennessee. It is the only incinerator in the Department of Energy (Department) that is permitted to
treat TSCA-regulated, radioactively contaminated polychlorinated biphenyl (PCB) waste. The objective of this
audit was to determine whether the Department operated the TSCA Incinerator at the capacity permitted by the
State of Tennessee.

RESULTS OF AUDIT

The Department did not operate the incinerator at the capacity permitted by the State of Tennessee or at the
"attainable" capacity. The "attainable" capacity represented the more realistic burn rate as determined by Bechtel
Jacobs, the contractor operating the incinerator.

Several factors contributed to the shortfall in actual operations relative to the capacity of the incinerator.
Specifically, we noted that the facility was designed to incinerate more waste than the Oak Ridge Reservation
planned to treat. Current operations were limited because (1) the majority of on-site waste was not sufficiently
characterized for the development of an effective burn plan, and (2) the State of Tennessee restricted incineration of
out-of-state waste until such time as more local waste is treated or disposed of.

Between FYs 1996 and 1998, the Department spent about $45 million to incinerate 7.7 million pounds of waste.
This equates to under 2.6 million pounds per year. Had the Department been more aggressive in incinerating the
waste at Oak Ridge, the 7.7 million pounds could have been incinerated in one year rather than three years, at a
savings of about $24 million. The 7.7 million pounds of incinerated waste was well within the 9.2 million pound
"attainable" annual burn rate established by the contractor. Furthermore, the audit showed that the waste could be
treated more economically at commercial facilities, once these treatment options become available in June 2000.
Consequently, we concluded that the Department could treat all of the Oak Ridge Reservation’s existing inventory
of incinerable waste by June 2000 and close the incinerator at that time. This would be 39 months earlier than
planned, and would reduce operating costs by $39 million.

MANAGEMENT REACTION

Management agreed with the audit finding and recommendations and initiated corrective actions.

Attachment

cc: Deputy Secretary
    Under Secretary
WASTE INCINERATION AT THE OAK RIDGE RESERVATION


TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..................................................................1

                Conclusions and Observations.................................................. 1


                Operating Capacity

                Details of Finding ...............................................................................3

                Recommendations and Comments ..................................................7


                Appendix

                Scope and Methodology.....................................................................9
Overview

INTRODUCTION      The TSCA Incinerator is located at the ETTP in Oak Ridge, Tennessee. It
AND               is the only incinerator in the Department that is permitted to treat TSCA-
                  regulated, radioactively contaminated PCB waste. The Department
                  designed the facility to treat PCB waste, radioactive hazardous waste (mixed
                  waste), and waste with low-levels of radioactivity (low-level waste). The
                  incinerator destroys over 99.9999 percent of the TSCA-regulated PCB
                  waste and 99.99 percent of the hazardous waste. The residuals from the
                  incineration process are disposed of at a commercial facility.

                  The TSCA Incinerator cost $25.6 million to build and started operating in
                  FY 1991. Bechtel Jacobs Company, LLC (Bechtel Jacobs) currently
                  operates the facility for the Department with a staff of approximately
                  72 employees. The FY 1999 operating budget for the facility is $15 million.
                  Bechtel Jacobs plans to subcontract operations of the facility starting in FY
                  2000.

                  The Office of Inspector General has not performed any prior audits of the
                  Department's incinerator operations. However, we are currently performing
                  audits at the Consolidated Incinerator Facility at the Savannah River Site and
                  the Waste Experimental Reduction Facility at the Idaho National Engineering
                  and Environmental Laboratory.

                  The objective of this audit was to determine whether the Department
                  operated the TSCA Incinerator at the capacity permitted by the State of
                  Tennessee.

CONCLUSIONS AND   The Department did not operate the incinerator at the capacity permitted by
OBSERVATIONS      the State of Tennessee or at the "attainable" capacity. The "attainable"
                  capacity represented the more realistic burn rate as determined by Bechtel
                  Jacobs, the contractor operating the incinerator.

                  Several factors contributed to the shortfall in actual operations relative to the
                  capacity of the incinerator. Specifically, we noted that the facility was
                  designed to incinerate more waste than the Oak Ridge Reservation planned
                  to treat. Current operations were limited because (1) the majority of on-site
                  waste was not sufficiently characterized for the development of an effective
                  burn plan, and (2) the State of Tennessee restricted incineration of out-of-
                  state waste until such time as more local waste is treated or disposed of.




Page 1                                                           Introduction and Objective/
                                                              Conclusions and Observations
         Between FYs 1996 and 1998, the Department spent about $45 million to
         incinerate 7.7 million pounds of waste. This equates to under 2.6 million
         pounds per year. Had the Department been more aggressive in incinerating
         the waste at Oak Ridge, the 7.7 million pounds could have been incinerated in
         one year rather than three years, at a savings of about $24 million. The 7.7
         million pounds of incinerated waste was well within the 9.2 million pound
         "attainable" annual burn rate established by the contractor. Furthermore, the
         audit showed that the waste could be treated more economically at
         commercial facilities, once these treatment options become available in June
         2000. Consequently, we concluded that the Department could treat all of the
         Oak Ridge Reservation’s existing inventory of incinerable waste by June 2000
         and close the incinerator at that time. This would be 39 months earlier than
         planned, and would reduce operating costs by $39 million.

         The audit identified issues that management should consider when preparing
         its yearend assurance memorandum on internal controls.



                                                                  (Signed)
                                    Office of Inspector General




Page 2                                             Conclusions and Observations
OPERATING CAPACITY


TSCA Incinerator Is       The Department is permitted to operate the TSCA Incinerator at an annual
Permitted to Burn 17.3    capacity of 17.3 million pounds based on the State of Tennessee's hourly
Million Pounds of Waste   permitted rate of 2,800 pounds. The annual capacity is determined by
Annually                  multiplying the hourly permitted rate by the number of hours the facility is
                          available to operate each year. After adjusting for required maintenance and
                          calibrations, the incinerator is available to operate about 6,163 hours per
                          year.

                          Although the permitted capacity is 17.3 million pounds, Bechtel Jacobs
                          management believed that a more realistic "attainable" capacity of the
                          incinerator was 1,500 pounds per hour, or 9.2 million pounds per year. The
                          attainable capacity reflects the typical mix of waste available for incineration.

                          The incinerator was designed to burn four waste streams simultaneously.
                          These include three liquid feeds and one solid feed. Typical wastes include
                          oils, solvents, chemicals, concrete, wood, plastic, graphite, rags, and
                          protective clothing. The amount of waste that can be fed through the
                          incinerator is based on the characteristics of the waste, such as the type of
                          hazardous component, level of radioactivity, and flammability. The
                          characteristics and constituents of the waste may require slower feed rates so
                          that air and water permits are not exceeded.

TSCA Incinerator Was      The TSCA Incinerator was not operating at either the capacity permitted by
Not Operating at          the State of Tennessee or the attainable capacity as determined by Bechtel
Capacity                  Jacobs management. The following table shows the amount of waste
                          incinerated and the resulting percentages of permitted and attainable capacity
                          used by the facility from FY 1996 through FY 1998:




                                              Use of TSCA Incinerator Capacity
                                                                               1996      1997      1998
                          Pounds Incinerated (Millions)                         3.4       2.5       1.8

                          Percent of Permitted Capacity Used                     20        14        10
                          Percent of Attainable Capacity Used                    37        27        20




Page 3                                                                                Details of Finding
                            The table shows that the incinerator operated at between 10 and
                            20 percent of its permitted capacity from FY 1996 through FY 1998.
                            Using Bechtel Jacobs’ attainable capacity as the benchmark, the facility
                            operated at between 20 and 37 percent of capacity. Thus, regardless of
                            the benchmark used, the incinerator did not operate near capacity.

                            Contractors generally met the Department’s performance expectations
                            even though the incinerator was operated at less than capacity. The
                            Department established performance goals for FYs 1996, 1997, and
                            1999 requiring that specific amounts of materials be treated at the TSCA
                            Incinerator in support of the Department's Strategic Plan and in
                            accordance with the requirements of the Government Performance and
                            Results Act of 1993. The Department did not establish a performance
                            goal for FY 1998 because the responsibility for incinerator operations
                            was transferred from Lockheed Martin Energy Systems (Energy Systems)
                            to Bechtel Jacobs during the year.

                            The TSCA Incinerator operated at less than capacity because the
TSCA Incinerator Operated   incinerator was built to treat more waste than the Oak Ridge Reservation
Below Capacity for          planned to treat. Additionally, recent operations were limited because (1)
Several Reasons             the majority of on-site waste was not sufficiently characterized for the
                            development of an effective burn plan, and (2) the State of Tennessee
                            restricted the incineration of waste generated by other states.

                                 Incinerator Was Designed to Treat More Waste Than Available

                            The TSCA Incinerator was built to treat more waste than the Oak Ridge
                            Reservation planned for incineration. The incinerator was originally
                            designed in 1982 to treat 5.6 million pounds of waste per year. The
                            Department estimated that it had 19.4 million pounds of waste in
                            inventory at the Oak Ridge Reservation and the Portsmouth, Paducah,
                            and Fernald sites and that 1.9 million pounds of waste would be
                            generated at the sites annually. The Department revised the estimate in
                            1985 to 20.1 million pounds of waste in the existing inventory and 2.6
                            million pounds to be generated annually. Although the estimate of waste
                            to be treated increased only slightly, the Department almost tripled the
                            designed capacity of the incinerator, from 5.6 million to 16.2 million
                            pounds per year.




Page 4                                                                           Details of Finding
         Management stated that the Department increased the designed capacity
         of the incinerator so that wastes from other sites could be brought in and
         treated at the Oak Ridge Reservation. However, management did not
         have estimates of the amount of waste expected to be shipped from other
         sites or other documented studies to support the increase in designed
         capacity.

                      Most Waste Was Not Sufficiently Characterized

         Current incineration activities have been limited because most of the Oak
         Ridge Reservation's incinerable waste was not fully characterized.
         Incinerable waste must be fully characterized before a burn plan can be
         developed for more efficient use of the incinerator. The amount of
         incinerable waste that was characterized ranged from 14 to 23 percent
         from FYs 1997 through 1999. For example, there were approximately
         6.8 million pounds of incinerable waste in inventory at the beginning of FY
         1997. However, only 1.2 million pounds (18 percent) were
         characterized. According to Bechtel Jacobs personnel responsible for
         waste characterization, the characterization of incinerable waste was one
         of several high-priority projects. The contractor had to balance all
         priorities to meet Site Treatment Plan milestones for all waste. Therefore,
         only a portion of the incinerable waste was characterized each year.

         The lack of characterized waste slowed down the incineration process in
         two ways. First, occasionally there were no characterized liquid wastes
         available for incineration. Second, wastes with regulated feed limits, such
         as fluorine, beryllium, and chromium, could not be blended with other
         types of waste to increase the feed rate because the types of wastes
         needed for blending had not yet been characterized. As a result, wastes
         with slow feed rates sometimes had to be fed alone.

          State of Tennessee Restricted the Incineration of Waste Received from
                                       Other States

         Another factor that has limited the current incineration activities was the
         fact that the State of Tennessee rejected the Department's 1997 and
         1998 TSCA Burn Plans to incinerate waste generated at other
         Departmental sites. The State of Tennessee determined that more
         restrictions should be placed on waste received from other sites until the
         Department treats and disposes of more local waste. Thus, the State of


Page 5                                                          Details of Finding
                     Tennessee placed greater restrictions on the incineration of waste
                     received from other states until the Department invests substantially more
                     resources to treat and dispose of all types of waste at the Oak Ridge
                     Reservation. As a result, the amount of out-of-state waste treated at the
                     TSCA Incinerator dropped from about 1.4 million pounds in FY 1996 to
                     about 200,000 pounds in FY 1998.

Incineration Costs   The Department incinerated 7.7 million pounds of waste between FYs
Were Excessive       1996 and 1998 at a cost of $45.6 million. Had the Department
                     incinerated waste at the attainable rate, it could have incinerated
                     7.7 million pounds in less than a year, resulting in a cost avoidance of at
                     least $24 million.

                     As of March 31, 1999, the local Oak Ridge Reservation had only
                     1.4 million pounds of incinerable waste in inventory and planned to
                     generate only about 314,000 pounds annually. Thus, the incinerator
                     cannot be operated at the rate of 9.2 million pounds per year at the
                     present time.

                     Further, the waste that will be generated in future years could be treated
                     under commercial contracts at rates below the cost of TSCA incineration.
                     The Department has awarded six contracts for the treatment of mixed
                     waste using new technologies. The technologies are to be available for
                     the treatment of waste by June 2000. The cost of treating solid mixed
                     waste will range from $2.26 to $6.80 per pound under the new contracts,
                     compared to $7.56 per pound using the TSCA Incinerator at less than
                     capacity. Also, the cost of treating liquid mixed waste will range from
                     $3.67 to $4.58 per pound compared to $5.67 using the TSCA
                     Incinerator at less than capacity.

                     Because the waste can be treated more economically at commercial
                     facilities rather than the TSCA Incinerator, the Department should close
                     the incinerator as soon as other treatment options are available. The
                     Department plans to operate the TSCA Incinerator through FY 2003.
                     However, by closing the TSCA Incinerator in June 2000, rather than
                     September 2003, the Department could avoid operating costs of $39
                     million.

                     The TSCA Incinerator must remain open until other treatment options are
                     available. Waste treatment is regulated by the Site Treatment Plan, and
                     the milestones for TSCA incineration must be met or the Department will

Page 6                                                                       Details of Finding
RECOMMENDATIONS    We recommend that the Manager, Oak Ridge Operations Office:

                   1. Require Bechtel Jacobs to characterize the inventory of incinerable waste
                      as soon as possible to facilitate preparation of a burn plan that will allow
                      the TSCA Incinerator to operate more efficiently, and

                   2. Close the TSCA Incinerator as soon as other treatment options are in
                      place.

MANAGEMENT         Management agreed with the audit finding and recommendations. Bechtel
REACTION           Jacobs plans to pursue the characterization of available Oak Ridge
                   incinerable wastes to optimize the use of the TSCA Incinerator as well as
                   other treatment alternatives. However, management stated that the report
                   assumes that characterization of the remaining waste in inventory will result in
                   characteristics that will not be restricted by the air and water permits, and
                   therefore, will facilitate the Department's being able to achieve higher feed
                   rates on a consistent basis. Also, management stated that the report did not
                   account for waste streams from out-of-state that relied on the TSCA
                   Incinerator for treatment of waste. Further, management stated that the
                   TSCA Incinerator will need to be operated until proven, cost-effective
                   technologies are brought on-line under the new treatment contracts. These
                   alternative technologies are in various stages of development and are
                   scheduled for demonstration tests using Departmental waste streams in FY
                   2000.
AUDITOR COMMENTS
                   We consider management's comments to be responsive. The report states
                   that current incineration activities have been limited because incinerable
                   waste was not fully characterized. The lack of characterization decreases the
                   amount of waste treated since the types of waste needed for blending with
                   difficult waste streams are not available. As a result, wastes requiring slow
                   feed rates are sometimes fed alone. The report does not claim that higher
                   feed rates could be achieved on a continuous basis. The report states that
                   incinerable waste must be fully characterized before a burn plan can be
                   developed for more efficient use of the incinerator.

                   Unless the State of Tennessee lifts its restriction on waste treated at the
                   TSCA Incinerator, the Department should not rely on the waste that is
                   generated at sites other than the Oak Ridge Reservation to make decisions
                   about the use of the TSCA Incinerator. The amount of



Page 7                                                   Recommendations and Comments
         out-of-state waste treated at the TSCA Incinerator was only about
         200,000 pounds in FY 1998, and the Department does not expect the
         State of Tennessee to lift its restrictions in the near future.

         We agree that the incinerator will need to stay open until alternative
         treatment options are in place. The new treatment technologies are to be
         available by June 2000, at which time the incinerator should be closed.




Page 8                                      Recommendations and Comments
Appendix

SCOPE         The audit was performed from August 25, 1998, to June 30, 1999 at the
              Operations Office and the ETTP in Oak Ridge, Tennessee. The scope of
              the audit included waste incinerated at the TSCA Incinerator from October
              1996 through May 1999, as well as plans for waste generated in the future.

              To accomplish the audit objective, we:
METHODOLOGY
              •   Reviewed the operating capacity and waste feed limitations for the
                  TSCA Incinerator;

              •   Determined the amount of time the incinerator was down for
                  maintenance and calibrations during FYs 1996 through 1998;

              •   Determined the amount of waste incinerated between FYs 1991 and
                  1998 and in inventory at the Oak Ridge Reservation as of March 31,
                  1999;

              •   Compared FY 1996 through FY 1998 operating levels to (1) the
                  capacity permitted by the State of Tennessee and (2) the attainable
                  capacity as determined by Bechtel Jacobs management; and

              •   Evaluated the Department’s performance expectations and measures for
                  the contractors that operated the TSCA Incinerator between FYs 1996
                  and 1999.

              The audit was performed in accordance with generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent necessary to
              satisfy the audit objective. Accordingly, the assessment included reviews of
              Departmental and contractor policies and procedures related to the
              management and control of incineration activities. Because our review was
              limited, it would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit. We assessed the reliability of
              computer generated data and found that it was reliable.

              We held an exit conference with officials from the Oak Ridge Operations
              Office on August 5, 1999.




Page 9                                                           Scope and Methodology
                                                                                   IG Report No.: DOE/IG-0451

                                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report to
   assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________               Date __________________________

Telephone _________________________              Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at             (202) 586-
0948, or you may mail it to:

                                        Office of Inspector General (IG-1)
                                              Department of Energy
                                             Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost effective
 as possible. Therefore, this report will be available electronically through the Internet at the following alternative
                                                        address:


                        Department of Energy Management and Administration Home Page
                                           http://www.hr.doe.gov/ig
                                                      or
                                            http://www.ma.doe.gov

                        Your comments would be appreciated and can be provided on the
                               Customer Response Form attached to the report.
